STATE OF SOUTH DAKOTA

OFFICE OF ATTORNEY GENERAL
JASON RAVNSBORG
ATTORNEY GENERAL

Post Office Box 70
Rapid City, South Dakota 57709-0070
Phone (605) 394-2258
Fax (605) 394-5476
www.state.sd.us/atg

Scott Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

CHARLES D. McGUIGAN
CHIEF DEPUTY ATTORNEY GENERAL

11 -rosy

RE: Noem v. Flandreau Santee Sioux Tribe, No. 19A788

Dear Mr. Harris:
Per Supreme Court Rule 37.2(a), petitioner Kristi Noem grants consent to the filing of amicus
curiae briefs in support of either or neither party.

Sincerely,

Paul S. Swedlund
Assistant Attorney General
Office of the Attorney General
State of South Dakota
605-394-2258
paul.swedlund@state.ScLus
Counsel of Record for Petitioners

RECEIVED
MAR - 9 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

